            OFFICE OF
            INSPECTOR
            GENERAL
            UNITED STATES POSTAL SERVICE




         Global Business Systems
          International Dispatch

                    Audit Report




                                           November 8, 2011

Report Number CRR-AR-12-001
                                                                              November 8, 2011

                                                                     Global Business Systems
                                                                        International Dispatch

                                                                Report Number CRR-AR-12-001



IMPACT ON:
Air transportation assignments for                    be completed in October 2011. We
outbound international mail and missent               evaluated those system changes and
international mail.                                   believe they will address the issues.

WHY THE OIG DID THE AUDIT:                            WHAT THE OIG RECOMMENDED:
Our objective was to assess controls                  We did not make recommendations
over Global Business Systems                          regarding these issues, as corrective
International Dispatch (GBS Dispatch)                 actions were taken in October 2011.
processes used to build outbound
international mail receptacles, assign                WHAT MANAGEMENT SAID:
transportation, and interface with                    Because there are no
operational and financial systems.                    recommendations, management elected
                                                      not to provide formal comments.
WHAT THE OIG FOUND:
GBS Dispatch controls over outbound                   Link to review the entire report
international mail are adequate.
However, controls within the Surface Air
Management System do not always
prevent outbound international mail from
exceeding air carrier capacities.
Additionally, GBS Dispatch does not
detect discrepancies between
destination country barcodes on
individual mailpieces 1 and destination
country barcodes on Enhanced
Distribution Labels 2 attached to
receptacles. As a result, incorrectly
addressed or scanned mail can be
missent.

In briefing management of the status of
system internal controls, management
stated they were aware of these issues
and had scheduled corrective actions to
1                          ®
  Express Mail International , Priority Mail
             ®                                   ™
International , and International Registered Mail .
2
  Barcodes placed on trays and sacks.
November 8, 2011

MEMORANDUM FOR:            BRENT A. RANEY
                           EXECUTIVE DIRECTOR, INTERNATIONAL NETWORK
                           OPERATIONS

                              E-Signed by Darrell E. Benjamin, Jr
                                VERIFY authenticity with e-Sign

FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Systems

SUBJECT:                   Audit Report – Global Business Systems International
                           Dispatch (Report Number CRR-AR-12-001)

This report presents the results of our audit of the Global Business Systems
International Dispatch (Project Number 11RG015CRR000).

This report contains no recommendations and U.S. Postal Service management was
not required to, and elected not to comment on its contents.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director, Cost,
Pricing, and Rates or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Giselle E.Valera
    Corporate Audit and Response Management
Global Business Systems International Dispatch                                                                       CRR-AR-12-001



                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Over Tendered Mail............................................................................................................. 2

Missent Mail ......................................................................................................................... 2

Appendix A: Additional Information..................................................................................... 4

   Background ...................................................................................................................... 4

   Objective, Scope, and Methodology ............................................................................... 4

   Prior Audit Coverage ....................................................................................................... 5
Global Business Systems International Dispatch                                                             CRR-AR-12-001



Introduction

This report presents the results of our audit of the Global Business Systems
International Dispatch (GBS Dispatch) (Project Number 11RG015CRR000). Our audit
objective was to assess controls over GBS Dispatch processes used to build outbound
international mail receptacles, assign transportation, and interface with operational and
financial systems. This self-initiated audit addresses financial risk. See Appendix A for
additional information about this audit.

GBS Dispatch is a web-based application used for dispatching domestic and military
mail to international destinations. Users build outbound international mail receptacles
and containers and assign outbound international transportation. Outbound international
mail transportation assignments are made through a GBS Dispatch interface with the
Surface Air Management System (SAMS). The SAMS determines transportation
capacity and assigns transportation to outbound international mail. One purpose of the
SAMS application controls is to prevent international carrier generated routes (ICGRs) 3
and carrier generated routes (CGRs) 4 from exceeding their maximum weight capacities.
When assigned mail volume reaches the transportation carrier’s maximum allowable
weight, the ICGR or the CGRs are to close the SAMS to prevent further mail volume
assignments and assure that the U.S. Postal Service does not over tender international
mail to air carriers.

The Point of Service (POS) ONE® is the primary Postal Service system used to conduct
retail sales transactions, including outbound international mail, during the retail
acceptance process. POS ONE collects data electronically from the scanning of
barcoded mailpieces at acceptance. Scanned data includes the destination country for
outbound international mailpieces.

When dispatch clerks at the international service centers (ISCs) build outbound
receptacles for dispatch, they scan enhanced distribution label (EDL) barcodes on the
receptacles, which identify the destination country for the receptacle. As the clerks place
individually scanned mailpieces into the receptacles, they scan the mailpiece barcode
on outbound Priority Mail® International, Express Mail® International, and International
Registered Mail™ mailpieces.

Conclusion

GBS Dispatch controls over building outbound international mail receptacles and
containers, assigning transportation, and interfacing with operational and financial
systems are adequate. However, the controls within SAMS, which GBS Dispatch relies
on to prevent outbound international mail receptacles or containers from exceeding air
carrier capacities are not always effective. Therefore, over tendered mail is returned to

3
    Contract with air carriers for moving international mail from an ISC to a foreign post or military location overseas.
4
    Contract with air carriers for moving mail in the domestic network and from ISC to ISC.
                                                                1
Global Business Systems International Dispatch                              CRR-AR-12-001



the ISCs and redispatched. Additionally, GBS Dispatch does not detect destination
country discrepancies between mailpieces scanned into POS One in the retail
environment and the EDL barcode scanned during dispatch. As a result, mailpieces can
be inadvertently placed in the wrong destination country receptacle and missent.

After briefing management of the status of system internal controls, management stated
they were aware of these issues and had scheduled corrective actions to be completed
in October 2011. We reviewed the system changes and believe they will correct the
identified control issues; therefore, we made no recommendations regarding these
issues.

Over Tendered Mail

The processing of outbound international mail does not always prevent the over tender
of mail. The GBS Dispatch system relies on SAMS for transportation assignments, and
SAMS controls do not always ensure air route capacities and maximum air contract
weights are not exceeded. As a result, over tendered mail is returned to the ISCs for
rework and new transportation assignments, which affects service performance and
Postal Service resources. Management developed corrective actions for this issue,
which were included in October 2011 system changes in SAMS. This will prevent the
over tender of mail by ensuring that ICGR and CGR capacities are not exceeded and
enforcing capacity restrictions on transportation assignments.

We were not able to quantify how often over tendered mail is returned by air carriers
and reworked at the ISCs. The ISCs do not keep official records regarding reworked
mail, and there are multiple reasons why mail is returned by air carriers and reworked,
including the following:

   Mail that is early, late, or over tendered to air carriers.
   Mail that is missent or late arriving to the correct cargo facility.
   Mail that is mislabeled or missing delivery paperwork.
   Invalid or cancelled flights.

However, one ISC kept unofficial records on reworked mail, which indicated that during
a 73-day period in fiscal year 2011, the ISC over tendered mail 14 times and had to
rework 35 containers of mail.

Missent Mail

GBS Dispatch does not detect discrepancies between the destination country of
individual mailpieces entered into POS ONE and the destination country identified on
the receptacle EDL barcodes in which the mailpieces are placed. As a result, Priority
Mail International, Express Mail International, and International Registered Mail
mailpieces can be inadvertently placed in the wrong receptacle and missent to foreign
posts. Management corrected this issue with the October 2011 GBS Dispatch system




                                                 2
Global Business Systems International Dispatch                                                         CRR-AR-12-001



change release, which enables GBS Dispatch to validate POS ONE destination country
data with the EDL data and should correct this issue.

The Postal Service receives notifications from foreign postal administrations (FPAs) that
a mailpiece has been missent and will be forwarded or returned via verification notes. 5
In general, FPAs can only detect missent mail on individually barcoded mailpieces such
as Express Mail International, International Registered Mail, and parcels. Generally, the
verification notes do not provide enough details to determine the cause for the missent
mail.

The Postal Service ISCs reported 28,945 missent mailpieces in calendar year 2010.
However, we were not able to determine how many would have been prevented if GBS
Dispatch had detected destination country discrepancies.




5
 Verification notes are used to communicate about the exchange of mail, in particular, irregularities in the
preparation, dispatch, and receipt of mail.


                                                           3
Global Business Systems International Dispatch                                                      CRR-AR-12-001



                                 Appendix A: Additional Information

Background

The Global Business Systems (GBS) application manages the process of mail entering
and leaving the U.S. as well as the reconciliation between mail sent and received. The
GBS application comprises three modules: International Receipt, International Dispatch,
and the International Reconciliation System. The International Operations group within
Global Business manages the GBS application.

GBS Dispatch is a web-based application accessible via Postal Service workstations
that is used to do the following:

   Dispatch and assign transportation to letters, parcels, and Registered Mail with item
    nesting 6 functions for Express Mail International, International Registered Mail, and
    parcels.
   Include both mailpiece and receptacle information into container nesting functions.
   Delete and restore receptacles at various levels, and generate dispatch documents
    to facilitate verification note management.
   Assign and reassign receptacle or container transportation as needed.

Objective, Scope, and Methodology

Our objective was to assess controls over GBS Dispatch processes used to build and
dispatch receptacles and containers, assign transportation, and interface with other
operational and financial systems.

To examine controls over GBS Dispatch processes, we conducted site visits at the
Chicago, Los Angeles, and New York ISCs and observed processes used to build,
dispatch, and assign transportation to outbound international mail. Additionally, we
interviewed management and staff at headquarters and the ISCs. To determine whether
planned system changes addressed the over tender and missent mail issues, we
analyzed system change documentation and interviewed management and system
experts at headquarters and the ISCs.

We conducted this performance audit from April through November 2011, in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our


6
 Nesting identifies which mailpieces are placed into specified receptacles, such as trays, and how these receptacles
are placed into specified containers.


                                                         4
Global Business Systems International Dispatch                        CRR-AR-12-001



observations and conclusions with management on October 21, 2011, and included
their comments where appropriate.

Prior Audit Coverage

There are no prior audits related to GBS Dispatch.




                                                 5
